App. 1
IN THE SUPREME COURT OF IOWA
No. 19-1674
Lucas County No. LACV033187
PETITION FOR REHEARING DENIED
CURT N. DANIELS and
INDIAN CREEK CORPORATION,
Plaintiffs-Appellants,
vs.
JOHN HOLTZ, personally and
JOHN HOLTZ, d/b/a WSH
PROPERTIES, LLC,
HUNTERS RETREAT, LLC
and NAVAJO ASSOCIATES, LLC.
Defendants-Appellees.

After consideration by this court, the petition for
rehearing in the above-captioned case is hereby overruled and denied.
Copies to:
Hunters Retreat, LLC
1747 East Morten Avenue Suite 105
Phoenix, AZ 85020
Navajo Associates, LLC
1747 East Morten Avenue Suite 105
Phoenix, AZ 85020
Wsh Properties, L.L.C.
1747 East Morten Avenue Suite 105
Phoenix, AZ 85020

App. 2
Curt Daniels
P.O. Box 701
Chariton, IA 50049
John Holtz
1747 East Morten Avenue Suite 105
Phoenix, AZ 85020

[SEAL]
State of Iowa Courts
Case Number
19-1674

Case Title
Daniels v. Holtz
So Ordered
/s/ Susan Larson Christensen
Susan Larson Christensen
Chief Justice

Electronically signed on 2021-04-29 10:40:50

App. 3
IN THE SUPREME COURT OF IOWA
No. 19–1674
Submitted February 17, 2021—Filed March 26, 2021
CURT N. DANIELS and
INDIAN CREEK CORPORATION,
Appellants,
vs.
JOHN HOLTZ, personally and JOHN HOLTZ
d/b/a WSH PROPERTIES, LLC, HUNTERS
RETREAT, LLC, and NAVAJO ASSOCIATES, LLC,
Appellees.

On review from the Iowa Court of Appeals.
Appeal from the Iowa District Court for Lucas
County, John D. Lloyd, Senior Judge.
The defendant seeks further review of a court of
appeals decision reversing a district court dismissal
of an action based on claim preclusion. COURT OF
APPEALS DECISION VACATED; DISTRICT COURT
JUDGMENT AFFIRMED.
Per curiam.
Curtis Daniels, Chariton, for appellants.
John B. Holtz, pro se, Phoenix, Arizona, appellee.

App. 4
PER CURIAM.
On July 26, 2006, a sheriff ’s sale was held in Lucas County for the stock of Curtis Daniels’s farm business Indian Creek Corporation. Indian Creek owned
an approximately 1220-acre cattle property in Lucas
County. The property was subject to various prior
mortgages and liens. John Holtz was the winning bidder at $110,000.1 Holtz is the principal of WSH Properties, LLC, which had previously obtained a judgment
against Daniels and Indian Creek for approximately
$246,000. See WSH Properties, L.L.C. v. Daniels, 761
N.W.2d 45, 47-48 (Iowa 2008).
Daniels filed an action in February 2007 seeking
to set aside the sheriff ’s sale. We found an issue of fact
whether Holtz had improperly discouraged the other
bidder at the sale, see Daniels v. Holtz, 794 N.W.2d 813,
823-24 (Iowa 2010), and ultimately the sale was invalidated by the district court on remand, see Daniels v.
Holtz, No. 12-1522, 2013 WL 5743640, at *2 (Iowa Ct.
App. Oct. 23, 2013) (affirming the decision to set aside
the sale). This necessitated a second sheriff ’s sale.
In December 2013, Daniels filed a motion seeking
a constructive trust and other remedies for “the monies
he would have received had he held and received the
benefit of the property at issue . . . between the time of
the first sheriff ’s sale and the second sheriff ’s sale.” In
July 2014, the district court concluded that Daniels’s
claims were untimely or barred by claim preclusion (or
1

Prior to the sheriff ’s sale, the stock had been appraised at
$29,500.

App. 5
both). The court of appeals affirmed. Daniels v. Holtz,
No. 14-1290, 2016 WL 1366760, at *2 (Iowa Ct. App.
Apr. 6, 2016). The court of appeals concluded, “[T]he
district court did not err in denying [Daniels’s] motion/
action on res judicata grounds.” Id.
“Daniels was not dissuaded.”2 His current petition
recites that he filed two subsequent actions in Lucas
County in October 2016 and October 2017. Both actions sought constructive trusts, and both were dismissed. Daniels also brought an action in federal
district court in May 2018, which was likewise dismissed under the rarely invoked Rooker-Feldman doctrine.3
Additionally, in its November 2018 order dismissing the October 2017 Lucas County lawsuit, the district court directed,
Curt N. Daniels is enjoined from filing any
new actions or filings, other than a notice of
appeal from this ruling, arising out of or related to the facts or subject matter of this case

2

This is a quotation from Daniels’s current petition.
The Rooker-Feldman doctrine is named for two United
States Supreme Court decisions, Rooker v. Fidelity Trust Co., 263
U.S. 413, 44 S. Ct. 149 (1923), and District of Columbia Court of
Appeals v. Feldman, 460 U.S. 462, 103 S. Ct. 1303 (1983). It bars
“cases brought by state-court losers complaining of injuries
caused by state-court judgments rendered before the [federal] district court proceedings commenced and inviting [federal] district
court review and rejection of those judgments.” Exxon Mobil Corp.
v. Saudi Basic Indus. Corp., 544 U.S. 280, 284, 125 S. Ct. 1517,
1521-22 (2005).
3

App. 6
or previous litigation between the parties to
this action.
This brings us to the present action, which Daniels
filed on July 15, 2019, in apparent disregard of the foregoing order. The present action again complains about
Daniels’s dispossession from the cattle farm since 2008
and his associated loss of rents and other income since
2009.4 Daniels claims that once the sheriff ’s sale was
set aside, he was legally entitled to restoration of all
the property. Accompanying the petition are nine exhibits, including a number of the rulings referenced
above. The petition, with some degree of candor, acknowledges that it is trying out new legal theories to
obtain relief for the same set of facts, this time under
Iowa Code chapters 646 and 649.
Holtz moved to dismiss this action, arguing that it
was repetitive of the prior unsuccessful lawsuits. Holtz
also raised the November 2018 order precluding Daniels from filing any new actions on the subject matter
of the sheriff ’s sale. The district court agreed and
granted dismissal of the entire case. In its dismissal
order, the district court not only adopted Holtz’s arguments, it added that the petition was barred by the
statute of limitations in that “the actions complained
of are over 9 years old.” The district court cited the
statute of limitations for actions on unwritten contracts and for fraud—Iowa Code section 614.1(4)—not
the statute of limitations for actions to recover real
4

Daniels also claims he was dispossessed of an eleven-acre
property in which he resided as a result of the sheriff ’s sale.

App. 7
property—section 614.1(5). Daniels responded with a
rule 1.904(a) motion, in which he asserted that his action was timely because less than twenty years had
elapsed since the judgment setting aside the sheriff ’s
sale. See Iowa Code § 614.1(6). The district court denied Daniels’s motion.
Daniels appealed, and we transferred the case
to the court of appeals. That court reversed and remanded, reasoning that it was not clear from the petition that the present action was barred by claim
preclusion, and that the district court committed error
in raising the statute of limitations sua sponte. The
court of appeals did not address the effect of the November 2018 order barring future lawsuits by Daniels.
We granted further review, and we now vacate the
decision of the court of appeals and affirm the judgment of the district court.
In ruling on Holtz’s motion to dismiss, the district
court was entitled to consider the attachments to Daniels’s petition. These included the July 2014 district
court ruling and the April 2016 court of appeals decision. Moreover, the district court was also entitled to
consider the dismissal orders specifically referenced by
case number and date in Daniels’s petition, even if they
had not been attached. See King v. State, 818 N.W.2d 1,
6 n.1 (Iowa 2012) (holding that in ruling on a motion
to dismiss for failure to state a claim, the court may
consider documents referenced in the petition regardless of whether they have been attached); see also
Homan v. Branstad, 864 N.W.2d 321, 323 n.1 (Iowa

App. 8
2015). Thus, the dismissal orders for the October 2016
and October 2017 actions, which were provided by
Holtz with his motion to dismiss, were likewise fair
game.
These documents make clear that this is at least
the fourth bite at the same apple by Daniels. The gist
of this claim, like the prior claims, is that because the
original sheriff ’s sale was set aside and had to be redone, Daniels should recover the cattle property and
income related to that property. This involves the same
nucleus of operative fact as the prior litigation, and the
district court correctly found that claim preclusion applies. See Pavone v. Kirke, 807 N.W.2d 828, 837 (Iowa
2011).5
For the foregoing reasons, we affirm in the judgment of the district court and vacate the decision of the
court of appeals.
COURT OF APPEALS DECISION VACATED;
DISTRICT COURT JUDGMENT AFFIRMED.
This opinion shall not be published.

5

We do not find it necessary to address whether dismissal
was properly granted on the other grounds noted by the district
court.

App. 9
[SEAL]
State of Iowa Courts
Case Number
19-1674

Case Title
Daniels v. Holtz
So Ordered

Electronically signed on 2021-03-26 14:05:01

App. 10
IN THE COURT OF APPEALS OF IOWA
No. 19-1674
Filed November 4, 2020
CURT N. DANIELS and
INDIAN CREEK CORPORATION,
Plaintiffs-Appellants,
vs.
JOHN HOLTZ, personally and JOHN HOLTZ,
d/b/a WSH PROPERTIES, LLC, HUNTERS
RETREAT, LLC and NAVAJO ASSOCIATES, LLC.
Defendants-Appellees.

Appeal from the Iowa District Court for Lucas
County, John D. Lloyd, Judge.
Curtis Daniels appeals the district court’s grant of
the defendants’ motion to dismiss. REVERSED AND
REMANDED.
Curtis Daniels, Chariton, self-represented appellant.
John B. Holtz, Phoenix, Arizona, self-represented
appellee.
Considered by Doyle, P.J., and Mullins and Greer,
JJ.
MULLINS, Judge.
In 2007, Curtis Daniels filed suit against John
Holtz and others seeking to set aside a sheriff ’s sale

App. 11
of real property, “alleging a variety of claims including
conspiracy, fraud, denial of equal treatment, unjust enrichment, intimidation, slander, and abuse of process.”
Daniels v. Holtz, 794 N.W.2d 813, 817 (Iowa 2010). The
defendants moved for summary judgment, and “Daniels moved to amend his petition to add nine causes of
action, including deceit and collusion by the parties
and their attorneys.” Id. The motion to amend was denied, and summary judgment was granted in favor of
defendants. Id. The supreme court remanded for a new
trial on the sole issue of “whether Holtz’s actions at the
sale chilled the bidding and unfairly or fraudulently
caused another bidder to cease bidding” and whether
the sale should be set aside on that basis. Id. at 825.
On remand, “[t]he court concluded Holtz’s actions
rose ‘to the level of the irregularity, unfairness, and
fraud described in case law’ and were ‘sufficient reason
to conclude the sale must be set aside.’ ” Daniels v.
Holtz, No. 12-1522, 2013 WL 5743640, at *1 (Iowa Ct.
App. Oct. 23, 2013). Holtz appealed, and we affirmed.
Id. at *2.
“After the second appeal became final, Daniels
filed a ‘motion for court imposition of a constructive
trust, order for restitution and request for punitive
damages,” alleging:
This instant action is brought to restore to
[him] the [corporation] property and property
that was owned by [him] personally prior to
the . . . sheriff ’s sale along with all proceeds
Holtz deprived [the corporation and him] of

App. 12
receiving post the sheriff ’s sale and the costs
incurred by [him] to recover his property.
Daniels v. Holtz, No. 14-1290, 2016 WL 1366760, at *1
(Iowa Ct. App. Apr. 6, 2016) (alterations in original),
cert. denied 137 S. Ct. 377 (2016). Holtz resisted, asserting the motion requested the same relief as the
2007 petition, which was already disposed of. Id.
The district court denied Daniels’s motion on res judicata grounds, reasoning, “The remedies of constructive trust, unjust enrichment, and restitution now
sought by the plaintiff in his present filings either were
brought before the Court and rejected, or were not
brought before the Court in a timely manner and thus
must be rejected.” Id. We affirmed on appeal. Id. at *2.
We reasoned the issues raised in the motion “were
raised before” in the first lawsuit and, although not addressed, “could have been determined.” Id. Specifically,
Daniels had
urged the district court to amend the [remand] ruling to impose “a constructive trust
upon Holtz in his post sheriff sale dealings
with [Indian Creek Corporation (ICC)], to assure that Holtz is not able to benefit from his
fraud.” Daniels also asserted, “All of Holtz’s
activities concerning ICC/Daniels following
the sheriff ’s sale, the ownership transfer(s) of
ICC, sale of ICC’s personal property, interference with Daniels operation of ICC, extending
the sheriff ’s sale reach to Daniels’s residence/
homestead, and other activities by Holtz should
all be assessed for fairness by the court.

App. 13
Daniels filed the lawsuit precipitating this appeal
in 2019. In his petition, he again seeks the return of
property allegedly in the wrongful possession of Holtz
as a result of the sheriff ’s sale being set aside, this time
pursuant to Iowa Code chapter 646 (recovery of real
property) and 649 (quieting title). He also seeks reimbursement for rent of and damages to the real property
occurring during the alleged wrongful possession, as
well as damages for conversion of personal property.
The defendants filed a pre-answer motion to dismiss, forwarding allegations concerning Daniels’s onslaught of senseless litigation against Holtz, frequent
judicial admonishment against the same, and Daniels’s failure to heed to said admonishments. The following day, the court entered an order granting the
motion to dismiss “for all the reasons set out in it”
and on statute-of-limitations grounds, which was not
raised in the motion to dismiss. Daniels unsuccessfully
moved for reconsideration, and this appeal followed.
Iowa Rule of Civil Procedure 1.421(1) provides
the bases for granting a motion to dismiss. We interpret the defendants’ motion to request dismissal for
“[f]ailure to state a claim upon which any relief may be
granted.” See Iowa R. Civ. P. 1.421(1)(f ). The motion alleged that, in 2018 the district court granted a motion
to dismiss in yet another lawsuit by Daniels against
Holtz and others and enjoined Daniels “from filing any
new actions or filings other than a notice of appeal
from this ruling, arising out of or related to the facts
or subject matter of this case or previous litigation
between the parties to this action.” According to the

App. 14
motion, the supreme court dismissed Daniels’s ensuing
appeal.1 The implication seems to be that the injunction thus serves as the law of the case for further litigation between the parties.
But the problem with granting a motion to dismiss
for failure to state a claim upon which any relief may
granted on that basis is that, in ruling on a motion to
dismiss, courts do not consider factual allegations contained in the motion, McGill v. Fish, 790 N.W.2d 113,
116 (Iowa 2010), and “facts not alleged cannot be relied
on to aid a motion to dismiss nor may evidence be
taken to support it.” Rieff v. Evans, 630 N.W.2d 278,
284 (Iowa 2001) (quoting Ritz v. Wapello Cnty. Bd. of
Supervisors, 595 N.W.2d 786, 789 (Iowa 1999)). To the
extent the district court may have taken judicial notice—without expressly saying so—of prior different
proceedings as alleged in the motion to dismiss, that
was improper without an agreement of the parties.
Troester v. Sisters of Mercy Health Corp., 328 N.W.2d
308, 311 (Iowa 1982).2

1

The motion also claims a similar admonishment and an attorney disciplinary board proceeding resulting in a public reprimand of Daniels for asserting a frivolous claim against Holtz in
the last several years, as well as a supreme court order directing
Daniels to submit no additional filings in an appellate case following his petition for rehearing following the issuance of procedendo.
2
We recognize the allegations in the petition involve the
same parties in prior proceedings concerning many of the same
allegations, but the petition was filed in a new legal action, not in
any of the prior cases.

App. 15
The defendants also argued Daniels’s petition
should be dismissed because various courts “have repeatedly denied [him] the relief requested in his” petition. To the extent the defendants are again arguing
for application of res-judicata principles, we are not
persuaded dismissal would be appropriate on that basis either. A large part of the underlying support for
that argument is also gleaned from factual allegations
outside the petition. While Daniels’s petition details
the history of the litigation, all we know is that, following the setting aside of the sheriff ’s sale, Daniels
sought a constructive trust, damages, and enjoining
Holtz from engaging in certain activities, apparently in
relation to Holtz’s fraud in prevailing at the sheriff ’s
sale. Here, Daniels appears to be seeking return of real
property and quieting of title following Holtz’s alleged
failure to turn over the property following the setting
aside of the sheriff ’s sale, which, for all we know could
have occurred after the litigation involving the first
two appeals.
Lastly, the court alternatively granted dismissal
on statute-of-limitations-grounds. But the statute or
statutes of limitations were not specifically asserted in
the motion to dismiss. Raising it sua sponte was error.
See, e.g., In re Estate of Terpstra, No. 17-0893, 2018 WL
2246838, at *2 (Iowa Ct. App. May 16, 2018); Page v.
State, No. 14-1842, 2016 WL 719243, at *2 (Iowa Ct.
App. Feb. 24, 2016); Reyna v. State, No. 13-0126, 2014
WL 1234142, at *2 (Iowa Ct. App. Mar. 26, 2014).
On the record before us, properly limited to the allegations contained in the petition, we find no valid

App. 16
basis for dismissing the case at this earliest stage of
the proceedings.3 We reverse and remand for further
proceedings.
REVERSED AND REMANDED.

[SEAL]
State of Iowa Courts
Case Number
19-1674

Case Title
Daniels v. Holtz

Electronically signed on 2020-11-04 08:40:04

3

For the same reasons set forth above, we deny the appellees’ motion to dismiss filed in response to the appeal in this case.

App. 17
IN THE COURT OF APPEALS OF IOWA
No. 14-1290
Filed April 6, 2016
CURT N. DANIELS,
Plaintiff-Appellant,
vs.
JOHN HOLTZ; WSH PROPERTIES,
LLC; HUNTERS RETREAT, LLC; and
NAVAJO ASSOCIATES, LLC.
Defendants-Appellees.

Appeal from the Iowa District Court for Lucas
County, Carla T. Schemmel, Judge.
Curt Daniels appeals the district court’s denial of
a motion on res judicata grounds. AFFIRMED.
Curt N, Daniels, Chariton, appellant pro se,
Robert L. Stewart Jr. of Robed Stewart & Associates, Phoenix, and Kermit B. Anderson of Finley, Alt,
Smith, Schamberg, Craig, Hilmes, & Gaffney, P.C., Des
Moines, for appellees.
Considered by Vogel, P.J., and Vaitheswaran and
Bower, JJ.
VAITHESWARAN, Judge.
This third appeal involving the same parties
raises the issue of whether the underlying action is
barred by the doctrine of claim preclusion.

App. 18
I.

Background Proceedings

Curt Daniels sued John Holtz and others in connection with a sheriff ’s sale of certain stock in a company known as Indian Creek Corporation (ICC). The
litigation spawned two appeals. See Daniels v. Holtz,
794 N.W.2d 813, 815 (Iowa 2010); Daniels v. Holtz, No.
12-1522, 2013 WL 5743640, at *1 (Iowa Ct. App. Oct.
23, 2013).
The opinion in the first appeal provides a detailed
rendition of the facts and issues. See Holtz, 794 N.W.2d
at 815-17. Daniels challenged two aspects of a summary judgment ruling disposing of a multitude of
claims. Id. at 817. The court found a genuine issue of
material fact precluding summary judgment in favor
of Holtz and remanded the case for a determination of
whether the fact issue would require the sheriff ’s sale
to be set aside. Id. at 825.
On remand, the district court set aside the sheriff ’s sale. Holtz appealed the remand decision, and this
court affirmed. Holtz, 2013 WL 5743640, at *2.
After the second appeal became final, Daniels filed
a “motion for court imposition of constructive trust, order for restitution and request for punitive damages.”
He alleged:
This instant action is brought to restore to
[him] the [corporation] property and property
that was owned by [him] personally prior to
the . . . sheriff ’s sale along with all proceeds
Holtz deprived [the corporation and him] of

App. 19
receiving post the sheriff ’s sale and the costs
incurred by [him] to recover his property.
In addition to seeking a constructive trust on certain
property, Daniels requested actual and punitive damages.
Holtz filed a resistance to the motion. He asserted
“Daniel’s Motion requests the same relief that was requested in his initial Petition for Relief filed February
26, 2007,” which was “conclusively disposed of by” the
district court and supreme court.
The district court denied the motion. The court
reasoned in part as follows:
Under Iowa law, “a party must litigate all
matters growing out of the claim” or they may
be precluded from bringing a second action
seeking relief which could and should have
been brought in the first action. Pavone v.
Kirke, 807 N.W.2d 828, 83536 (Iowa 2011). The
reason for this rule is to prevent a party from
getting “a second bite” simply by alleging a
new theory of recovery for the same wrong. Id.
...
The remedies of constructive trust, unjust enrichment, and restitution now sought
by the plaintiff in his present filings either
were brought before the Court and rejected, or
were not brought before the Court in a timely
manner and thus must be rejected.
A third appeal followed.

App. 20
On appeal, Daniel styles his trial court “motion” as
an action to implement or enforce the final judgment
setting aside the sheriff ’s sale. He contends the district
court erred in denying the motion/action. Holtz responds with a number of arguments, including an argument premised on “res judicata.”
II.

Res Judicata Claim Preclusion

The doctrine of res judicata includes both claim
preclusion and issue preclusion.” Pavone, 807 N.W.2d
at 835. This appeal involves claim preclusion, which
“holds that a valid and final judgment on a claim bars
a second action on the adjudicated claim or any part
thereof.” Id. In other words, “[a]n adjudication in a
prior action between the same parties on the same
claim is final as to all issues that could have been presented to the court for determination.” Id. at 836 (citation omitted).
To establish claim preclusion a party must
show: (1) the parties in the first and second
action are the same parties or parties in privity, (2) there was a final judgment on the merits in the first action, and (3) the claim in the
second suit could have been fully and fairly
adjudicated in the prior case (i.e., both suits
involve the same cause of action).
Id.
There is no dispute as to the first and second elements. Daniels and Holtz were both parties to the original action, and the original action culminated in a

App. 21
final judgment setting aside the sheriff ’s sale of ICC
stock.
We turn to the third element—whether the claim
in the second suit could have been fully and fairly adjudicated in the prior case. “[A] party must litigate all
matters growing out of the claim, and claim preclusion
will apply not only to matters actually determined in
an earlier action but to all relevant matters that could
have been determined.” Id. at 835 (citation omitted).
Daniels’ motion/action underlying this appeal is
the “second suit” for purposes of a claim preclusion
analysis. The issues raised in this suit were raised before. Specifically, after the district court issued its remand decision setting aside the sheriff ’s sale, Holtz
moved for a new trial, which Daniels resisted. In his
resistance, he urged the district court to amend the
ruling to impose “a constructive trust upon Holtz in his
post sheriff sale dealings with ICC, to assure that
Holtz is not able to benefit from his fraud.” Daniels
also asserted, “All of Holtz’s activities concerning ICC/
Daniels following the sheriff ’s sale, the ownership
transfer(s) of ICC, sale of ICC’s personal property, interference with Daniels operation of ICC, extending
the sheriff ’s sale reach to Daniels’s residence/homestead, and other activities by Holtz should all be assessed for fairness by the court,” Although the district
court’s ruling on Holtz’s new trial motion did not address the issues raised in Daniel’s resistance, they
were clearly issues that “could have been determined.”
Id.

App. 22
Because the relief Daniels sought in the second
suit is the same relief Daniels sought in the original
action, we conclude claim preclusion barred the second
suit. Accordingly, the district court did not err in denying the motion/action on res judicata grounds.
AFFIRMED.

[SEAL]
State of Iowa Courts
Case Number
14-1290

Case Title
Daniels v. Holtz

Electronically signed on 2016-04-06 08:16:19

App. 23
IOWA SUPREME COURT
) SUPREME COURT
CURT N. DANIELS and
) CASE. 19-1674
INDIAN CREEK
)
CORPORATION,
) CASE NO: CVCV033187
Plaintiffs-Appellants
) DEFENDANTS’) APPELLEES’
vs.
)
JOHN HOLTZ PERSONALLY WAIVER OF BRIEF
) (Filed Nov. 26, 2019)
AND JOHN HOLTZ, d/b/a
WSH PROPERTIES, LLC, )
)
HUNTERS RETREAT,
)
LLC, and NAVAJO
ASSOCIATES, LLC
)
Defendants-Appellees )
)
COMES NOW defendants-appellees John Holtz,
both personally and purportedly doing business as
WSH Properties, LLC, Hunters Retreat, LLC, and Navajo Associates, LLC (collectively, “Holtz”), pursuant to
Rule 6.903(4), Iowa Rules of Civil Appellate Procedure,
and hereby waives the appellee’s brief.
Holtz incorporates the Motion to Dismiss filed in
this appeal on October 11, 2019 which cites the following Order affirmed by the Iowa Supreme Court on
March 18, 2019 in Case No. 19-0078:
In order to fully understand and appreciate
Defendants’ Motion to Dismiss and Plaintiffs’
Resistance thereto, the court has reviewed
each of the rulings and documents addressed
herein. Based upon that review, the court finds

App. 24
Daniels, who is an attorney, has continued to
file motions and complaints against Defendants based upon rejected legal propositions. He
has continued to advocate positions against
Holtz that have been found unsound. As noted
above, both the District Court and the Supreme Court ordered Daniels to cease filing
documents in two previous related cases between the parties, and the Supreme Court
publicly reprimanded him for frivolous filings
in a third. Yet Daniels continues.
Daniels’ failure to make proper inquiry into
the law regarding the present case has caused
needless litigation costs for the Defendants
and has been wasteful of judicial resources.
The court finds Defendants’ request for sanctions is appropriate to prevent further misuse
of the judicial system.
ORDERS:
Based upon the foregoing, Defendants’ Motion to
Dismiss is GRANTED for failure to state a claim upon
which relief may be granted.
IT IS FURTHER ORDERED as and for sanctions,
that Curt N. Daniels is enjoined from filing any new
actions or filings, other than a notice of appeal from this
ruling, arising out of or related to the facts or subject

App. 25
matter of this case or previous litigation between the
parties to this action.
Respectfully submitted,
/s/ John Holtz John B Holtz
John B. Holtz
1747 East Morten Avenue,
Suite 105
Phoenix, Arizona 85020
Telephone: 602-266-7766
Copy to:
Curt Daniels
P.O. Box 701
Chariton, IA 50049

[Certificate Of Service Omitted]

App. 26
IN THE SUPREME COURT OF IOWA
) SUPREME COURT
CURT N. DANIELS
)
and INDIAN CREEK
NO. 19-1674
)
CORPORATION
LUCAS COUNTY
)
CASE NO:
PLAINTIFFS,
)
LACV033187
APPELLANTS.
)
APPELLANTS’
)
vs.
RESPONSE
TO
JOHN HOLTZ personally, )
APPELLEES’
and, JOHN HOLTZ, dba )
WAIVER
WSH PROPERTIES, LLC; )
TO
)
HUNTERS RETREAT,
SUBMIT BRIEF
LLC; and NAVAJO
)
Iowa R. App. P.
ASSOCIATES, LLC.
)
6.501 and 6.1002
)
DEFENDANTS,
) (Filed Dec. 3, 2019)
APPELLEES
)
COMES NOW Plaintiffs/Appellants, Curt N.
Daniels and Indian Creek Corporation, (hereinafter
collectively Daniels), and in support of this Response,
submitted under Iowa R. App. P. 6.1002, the following
is set forth:
INTRODUCTION
Appellees’ Holtz et al. cites Iowa Rule of Appellate
Procedure 6.903(4) as authority for Defendants’Appellees Waiver of Brief. Daniels, does not resist
Holtz’s request to be relieved from filing a brief. However, Rule 6.903(4) addresses only whether or not an
appellant wishes to file a reply brief – not whether an
appellee wishes to be relieved from filing Appellee’s

App. 27
Brief. Possibly the correct Iowa. R. App. P. is 6.501,
which provides procedural rule for “other proceedings.”
Daniels submits that Holtz’s desire to be relieved
from filing an Appellees’ Brief is not prejudicial, is in
the interest of judicial economy, and may promote justice. Daniels does not resist Holtz’s request for waiver
from submitting brief.
DISCUSSION
A. HOLTZ’S RELIANCE ON S.C. NO, 190078 ORDER IS ERRED
Holtz’s Waiver of Brief on pgs. 1-2 recites the Ruling in Lucas County Case No. CVCV033079. The Ruling in CVCV033079 is not controlling of the instant
appeal for the following reasons:
1.

Holtz’s recitation of sanctions ordered by the
district court, italicized by Holtz on page 2 of
his Waiver of Brief, was denied by this Court.
A copy of the Order is attached hereto as Exhibit 1 for the Court’s convenience.

2.

Regardless of how the 19-0078 Order is interpreted by Holtz, such interpretation is irrelevant in the instant appeal. S.C. No. 19-1674 is
not a “new action.” This appeal devolves from
the Judgment awarded to Daniels and was
sustained by the Appellate Court, Daniels v.
Holtz, 840 N.W.2d 727 (Iowa Ct. App. 2013,
LEXIS 1081). This appeal concerns only Daniels’ efforts in LACV033187 to execute on the
Judgment.

App. 28
3.

The Judgment, the subject of LACV033187,
from which the instant appeal devolves, is a
species of property protected by the Due Process Clause of U.S. Const. Amendment XIV,
Logan v. Zimmerman, 455 U.S. 422, 429 (1982).
The Court’s refusal to allow Daniels to execute on the Judgment is a continuing U.S.
Const. violation and not subject to Statute of
Limitations or other constrictions, see Appellants’ Proof Brief 19-1674, Issue II, pgs. 31-38,
filed Oct. 30, 2019, EDMS.

B. THE ORDER UPON WHICH HOLTZ RELIES WAS DEFECTIVE IN ITS INCEPTION. FURTHER RELIANCE BY THIS
COURT ON SUCH ORDER IS UNACCEPTABLE.
1.

The Order Holtz recites in Waiver of Brief devolved from prior cases, CVCV033881 and
LACV031411. These two actions were brought
to have certain judgments Holtz was granted
against Daniels in or about 2003 to be vacated. The judgments were satisfied in or
prior to 2008 and, by law, were required to be
vacated as provided by Iowa R. Civ. P. 1.1016.
Daniels actions for vacation of the satisfied
judgments was supported with exhibits evidencing satisfaction of the judgments and
controlling case law. Daniels’ reasonable expectation was that Holtz would allow the
court to Order the satisfied judgments vacated – that was not the case. The district
court failed to understand, consider, or address, that Rule 1.1016 authorized Daniels’

App. 29
actions. The court in error ruled that Daniels’
actions were barred by the Statute of Limitations and relied on Holtz pleadings that the
judgments were not paid. Holtz’s pleadings
were without supporting evidence and did not
address Daniels’ evidence that Holtz’s judgments were satisfied.
2.

Failing to have the satisfied judgments vacated, as a result of Holtz and his attorney
team deceiving the court, Daniels filed Complaint CVCV033079 with jury demand in Lucas County District Court. In CVCV033079
Daniels sought remedy(s) for defendants illegal and unanticipated actions in the prior action to block the vacation Holtz’s satisfied
judgments.

3.

Daniels supported CVCV033079 with a body
of Iowa citations that provide that claims
“based on events subsequent to the filing of
the [prior], suits . . . and therefore could be based
on the ‘same facts’.” are not subject to issue or
claim preclusion, Leichtennacher v. Farm Bureau Mutual Ins. Co., 460 N.W.2d 858, 861
(Iowa 1990). Daniels’ Plaintiffs’ Motion for Reconsideration of Ruling Issued 11/25/2018 Dismissing Complaint, filed Dec. 07, 2018, on pgs.
6-8, distinguishes that CVCV033079 is not
controlled by Pavone v. Kirke, 807 N.W.2d 828,
836 (Iowa 2011) as held by the court; and instead is controlled body of Iowa precedent
holding otherwise., see Plaintiffs’ Motion for
Reconsideration, EDMS.

App. 30
4.

Appellants’ Resistance to Dismissal of 191674, filed on October 21, 2019, made the following request; repeated here:
“I respectfully submit that if this
Court reviews my Appellants’ Resistance,
in CVCV033079, with the attached Affidavit and Exhibits, citations to case precedent and otherwise, that the Court will
understand that the sustaining of Defendants’ Motion to Dismiss Appeal, S.C.
No. 19-0078, was contrary to the law and
was error.” Bold in the original, p. 4, Plaintiffs’ Resistance to Dismissal, filed Oct. 21,
2019.

CONCLUSION
Holtz’s recitation of the district court’s Order in
CVCV033079 is erred and as such attempts to deceive
the Court and frustrates the cause of justice. Holtz’s
Motion to Dismiss Appeal should be denied. Daniels
does not resist Holtz’s request for Waiver of Brief.
Respectfully submitted,
December 03, 2019
Date

/s/ Curt N. Daniels
Curt N. Daniels, At 0001959
Attorney pro se
P.O. Box 701
Chariton, Iowa 50049
Voice/Fax: 641-774-4050
curt daniels@hotmail.com
curtisdaniels@
iowatelecom.net

App. 31
Original efiled,
Clerk of the Iowa Supreme Court
Copies to:
John Holtz, personally, and
John Holtz, dba, WSH Properties, LLC;
Hunters Retreat, LLC; and Navajo Associates, LLC;
c/o Robert Stewart & Associates, Attorneys
1747 East Morten Avenue, Suite 105
Phoenix, Arizona 85020
Phone: 602-266-7766
Fax: 602-266-7744
Robert@rsalawaz.com

[Certificate Of Service Omitted]

EXHIBIT 1
IOWA SUPREME COURT
ORDER IN 19-0078
IN THE SUPREME COURT OF IOWA
No. 19-0078
Lucas County No. CVCV033079
ORDER
(Filed Mar. 18, 2019)
CURT N. DANIELS and
INDIAN CREEK CORPORATION,
Plaintiffs-Appellant,

App. 32
vs.
JOHN HOLTZ, personally and
JOHN HOLTZ, d/b/a WSH
PROPERTIES, LLC; HUNTERS
RETREAT, LLC and NAVAJO
ASSOCIATES, LLC, FINLEY LAW
FIRM, KERMIT B. ANDERSON,
STEWART AND ASSOCIATES, P.C.,
ROBERT L. STEWART, BRICK GENTRY, P.C.,
JAMES NERVIG, BILLY MALLORY and
MATTHEW CRONIN,
Defendants-Appellees.

This matter comes before the court, Waterman,
Christensen, and McDonald, B., upon the appellees’
motions to dismiss the appellant’s appeal. Iowa R. App.
P. 6.1006(1). Appellant has filed resistances, and the
appellees have replied.
Upon consideration, the motion to dismiss is
granted. The requests for sanctions are denied.
Copies to:
Curt Daniels
P.O. Box 701
Chariton, IA 50049
James E. Nervig
Billy J. Mallory
Brick Gentry, P.C.
6701 Westown Parkway, Suite 100
West Des Moines, IA 50266

App. 33
Janice M. Thomas
Catherine M. Lucas
Bradshaw Fowler Proctor & Fairgrave, P.C.
801 Grand Avenue, Suite 3700
Des Moines, IA 50309-8004
Kermit B. Anderson
Finley Law Firm
Hub Tower
699 Walnut St., Suite 1900
Des Moines, IA 50309
Robert L. Stewart
Robert Stewart & Associates PC
1747 East Morten Ave., Suite 105
Phoenix, AZ 85020
Clerk of District Court, Lucas County

[SEAL]
State of Iowa Courts
Case Number
19-0078

Case Title
Daniels v. Holtz
So Ordered
/s/ Susan Christensen
Susan Christensen, Justice

Electronically signed on 2019-03-18 08:54:07

App. 34
IN THE IOWA DISTRICT COURT
FOR LUCAS COUNTY
) LUCAS COUNTY
CURT N. DANIELS
) CASE NO. LACV033187
and INDIAN CREEK
)
CORPORATION,
) PETITION AT LAW
PLAINTIFFS,
) FOR POSSESSION
vs.
) OF REAL PROPERTY
JOHN HOLTZ personally, ) AND DAMAGES FOR
WRONGFUL
and, JOHN HOLTZ, dba )
POSSESSION
AND
WSH PROPERTIES, LLC; )
CONVERSION I.C.
dba HUNTERS RE) CHAPTER 646 et seq.
TREAT, LLC; dba NAV- )
AJO ASSOCIATES, LLC; ) AND PETITION IN
EQUITY TO QUIET
DEFENDANTS
) TITLE I.C. CHAPTER
649 et seq.
(Filed Jul. 15, 2019)
COMES NOW the Plaintiffs, Curt N. Daniels,
(Daniels), and Indian Creek Corporation, (ICC), (collectively hereinafter Daniels), and in support of this
Petition the following is set forth:
SUMMARY OF THIS ACTION
Defendants, (hereinafter collectively Holtz), acquired sheriff ’s deeds to real property owned by Daniels and took possession of Daniels’ personal property
following a sheriff ’s sale of ICC on July 26, 2006. Daniels brought action to have the sheriff ’s sale set aside.
The court in Judgment & Ruling After Trial to the

App. 35
Court, (hereinafter Judgment), set aside the sale based
on finding that the sale was
*

*

*

